HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, Mutual of Omaha Insurance Company, (A-07-94-00742)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, Mutual of Omaha
Insurance Company," (A-07-94-00742)
July 18, 1995
Complete Text of Report is available in PDF format
(1.4 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Under the terms of its Medicare contract, Mutual of Omaha (Mutual) was required
to separately identify, allocate, and report pension assets and costs separately
for its Medicare segment of business. This final audit report points out that
Mutual understated Medicare segment assets as of 1992 by $3,911,067. This occurred
primarily because Mutual's former actuarial firm used incorrect data in the
determination of Medicare's initial assets. Increasing the Medicare segment's
assets by the above amount will result in (1) lower Medicare pensions costs
in future years and (2) Medicare receiving higher reversions/refunds in the
event of a pension plan termination or a termination of the Medicare contract.
We recommended that Mutual increase assets of the Medicare segment by $3,911,067.
Mutual concurred with our recommendation.